 September 18, 2002




Supply Inventory
Management
Defense Logistics Agency Managed
Items Supporting Air Force Weapon
Systems
(D-2002-149)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ALC                   Air Logistics Center
DIIP                  Defense Inactive Item Program
DLA                   Defense Logistics Agency
IIRN                  Inactive Item Review Notification
NSN                   National Stock Number
SAMMS                 Standard Automated Materiel Management System
            Office of the Inspector General of the Department of Defense

Report No. D-2002-149                                              September 18, 2002
  (Project No. D2001LD-0128.002)

           Defense Logistics Agency Managed Items Supporting
                       Air Force Weapon Systems

                                   Executive Summary

Who Should Read This Report and Why? DoD personnel who are involved in
materiel management should read this report. The report discusses compliance with
procedures used to ensure that national stock number (NSN) items are not inappropriately
deleted from the Defense Logistics Agency (DLA) supply system.

Background. This report, the last in a series of reports on terminal NSNs, addresses an
Air Force concern that NSNs supporting Air Force weapon systems were inappropriately
deleted from the DLA supply system. Since 1991, the Air Force transferred management
of about 494,000 NSNs to DLA. Of the 494,000 NSNs transferred, 92,000 were
subsequently deleted from the supply system.

DLA established the weapon system support program to enhance the readiness and
sustainability of the Military Departments by providing the maximum level of support for
DLA-managed NSNs with a weapon system application. Personnel at DLA supply
centers are required to notify the Military Departments when, as a result of the DLA
Defense Inactive Item Program process, DLA initiates actions to delete NSNs in the
weapon system support program. The DLA Defense Inactive Item Program provides for
the systematic elimination of inactive, or obsolete, NSNs from the DLA supply system.
As of March 2002, 308 Air Force weapon systems were in the DLA weapon system
support program.

Results. DLA and Air Force Defense Inactive Item Program procedures were not being
followed and NSNs required to support Air Force weapon systems had been
inappropriately deleted from the supply system. Air Force personnel reviewed 756 NSNs
associated with 8 Air Force weapon systems that we judgmentally selected to determine
whether NSNs deleted from the DLA supply system were still required. Of the
756 NSNs, the Air Force identified 571 that had been inappropriately deleted from the
DLA supply system. As a result, NSNs were not available to support Air Force weapon
systems and Air Force weapon system readiness could be adversely affected.
Additionally, DLA disposed of assets, valued at $153,000, that were required to support
Air Force weapon systems, and DLA and the Air Force will incur unnecessary supply
management costs to reinstate catalog and supply files for inappropriately deleted NSNs.
Establishment of controls to comply with existing Defense Inactive Item Program
procedures should ensure that NSNs are not inappropriately deleted from the supply
system. (See the Finding section for the detailed recommendations.)

Management Comments. DLA and the Air Force concurred with the recommendations.
DLA stated that it had frozen assets to prevent disposal if an NSN was canceled as a
result of the Defense Inactive Item Program and the Air Force was a user of the item.
DLA further stated that the Air Force is reviewing NSNs canceled through the Defense
Inactive Item Program to determine those NSNs that require reinstatement. The Air
Force stated that it is monitoring revised Defense Inactive Item Program procedures and
tracking the progress of the Defense Inactive Item Program review process. The Air
Force further stated that when DLA establishes procedures to notify it of the pending
deletion of NSNs that are in the weapon system program, it will establish a system to
review the NSNs before they are deleted from the supply system. See the Finding section
of the report for a discussion of management comments and the Management Comments
section of the report for the complete text of the comments.

Management Actions. DLA and the Air Force have taken actions to improve the DLA
Defense Inactive Item Program process. DLA and the Air Force are in the process of
reinstating approximately 20,000 NSNs with Air Force interest that had been deleted
from the supply system during the FY 2000 and FY 2001 DLA Defense Inactive Item
Program processes. Reinstated NSNs will be included in the DLA Defense Inactive Item
Program in the future. On January 29, 2002, DLA requested that its supply centers not
send assets to disposal for those NSNs that had Air Force user interest withdrawn through
the Defense Inactive Item Program. The Air Force has revised its procedures for
responding to DLA Defense Inactive Item Program transactions. (See the Finding
section for a discussion of management actions.)




                                           ii
Table of Contents

Executive Summary                                 i


Background                                       1


Objectives                                       2


Finding
     Items Supporting Air Force Weapon Systems    3

Appendixes
     A. Scope and Methodology                    10
          Management Control Program Review      11
     B. Prior Coverage                           13
     C. Report Distribution                      14

Management Comments
     Department of the Air Force                 17
     Defense Logistics Agency                    19
Background

    Materiel Management. Defense Logistics Agency (DLA) supply centers are
    assigned the primary responsibility for materiel management for a group of items
    used by either a particular Service or by DoD as a whole. Materiel management
    responsibilities include cataloging,1 requirements computation, procurement
    direction, distribution management, and disposal direction.

    DoD Defense Inactive Item Program Guidance. DoD Manual 4140.32-M,
    “Defense Inactive Item Program (DIIP),” August 1992, states that items no longer
    needed to support the mission of DoD organizations, other Federal agencies, or
    the International Logistics Program, needlessly consume machine time, personnel
    resources, and warehouse space with serious effect on the total supply system.
    DoD managers at every level are expected to place serious and continuous
    emphasis on the purging of unneeded items from the materiel inventory and active
    catalog files. DLA is assigned the responsibilities of administering the DIIP and
    reviewing and evaluating the operations of the DIIP on a continuous basis.

    DLA DIIP Procedures. DLA Manual 4140.2, “Supply Operations Manual,”
    July 1, 1999, provides policy, uniform guidance, and procedures for DLA supply
    centers to systematically review and eliminate inactive, or obsolete, items of
    supply from the DLA supply system through the DLA DIIP. In the DIIP, DLA
    supply centers send potentially inactive national stock number (NSN) items to
    registered users, primarily the Military Departments, to review and notify the
    supply centers to either delete or retain the NSNs.

    DLA Manual 4140.3, “Materiel Management Manual,” August 1988, provides
    guidance for the management of items in the DLA weapon system support
    program. DLA established the weapon system support program to enhance the
    readiness and sustainability of the Military Departments by providing the
    maximum level of support for DLA-managed NSNs with a weapon system
    application. When DLA initiates actions to delete NSNs in the weapon system
    support program as a result of the DIIP process, the manual requires that the
    supply center monitor for the weapon system support program notify the Military
    Departments to obtain their concurrence or nonconcurrence. As of March 2002,
    308 Air Force weapon systems were in the DLA weapon system support program.

    Air Force DIIP Procedures. Air Force Manual 23-110, “United States Air Force
    Supply Manual,” January 1, 2002, provides policy and procedures for Air Force

    1
        The act of naming, classifying, describing, and numbering each item repetitively used,
        purchased, stocked, or distributed so as to distinguish each item from every other item. Also
        included is the maintenance of information related to the item and the dissemination of that
        information to item users.



                                                  1
    organizations to respond to the DLA DIIP. The Air Force cataloging office, Air
    Force Logistics Command, is responsible for directing and administering the DIIP
    within the Air Force.


Objectives

    The overall audit objective for this series of reports was to evaluate the DLA
    management of terminal NSN items. This report, the last in the series, addresses
    an Air Force concern that NSNs supporting Air Force weapon systems were
    inappropriately deleted from the DLA supply system. We also reviewed the
    management control programs as they applied to the audit objective. See
    Appendix A for a discussion of the audit scope and methodology and our review
    of the management control program, and see Appendix B for prior coverage
    related to the audit objectives.




                                        2
               Items Supporting Air Force Weapon
               Systems
               DLA and Air Force DIIP procedures were not being followed and NSNs
               required to support Air Force weapon systems had been inappropriately
               deleted from the supply system. Air Force personnel reviewed 756 NSNs
               associated with 8 Air Force weapon systems that we judgmentally selected
               to determine whether NSNs deleted from the DLA supply system were
               still required. Of the 756 NSNs, the Air Force identified 5712 that had
               been inappropriately deleted from the DLA supply system. Those
               conditions occurred because DLA and Air Force management controls to
               ensure that NSNs were not inappropriately deleted from the DLA supply
               system were ineffective. As a result, NSNs were not available to support
               Air Force weapon systems and Air Force weapon system readiness could
               be adversely affected. Additionally, DLA disposed of assets, valued at
               $153,000, that were required to support Air Force weapon systems, and
               DLA and the Air Force will incur unnecessary supply management costs
               to reinstate catalog and supply files for inappropriately deleted NSNs.


DIIP Process

    DLA. Each October, the DLA Standard Automated Materiel Management
    System (SAMMS) screens all NSNs in the DLA supply centers’ supply control
    files to determine the NSNs that are eligible for the DIIP. After eligible NSNs
    have been identified, SAMMS screens the NSNs against catalog and supply data
    to determine whether the NSNs qualify for the DIIP. NSNs with registered users,
    primarily the Military Departments, qualify for the DIIP and are referred to the
    Military Departments to review the NSNs and notify the supply centers to either
    delete or retain the NSNs. Referrals are made using an inactive item review
    notification (IIRN). A Military Department receives an IIRN for each NSN that
    shows it as a registered user. If a Military Department does not respond to an
    IIRN by May of the following year, the supply centers send a followup IIRN. If
    the supply centers do not receive a reply within 60 days of the date of the
    followup IIRN, the supply centers will remove the Military Department as a
    registered user. If there are no registered users of an NSN, the supply centers
    initiate the process to delete the NSN from the DLA supply system.




    2
        Judgment sample does not generalize to universe.



                                                 3
    Air Force. Air Force Manual 23-110 provides that the Air Force cataloging
    office receive and process IIRNs to and from DLA. The cataloging office is
    required to transmit the IIRNs to Air Logistics Centers (ALCs). ALCs provide
    worldwide logistics management and depot-level maintenance for Air Force
    weapon systems. The ALCs send the IIRNs to Air Force users for their review to
    determine whether NSNs should be retained or deleted. After the users’ review,
    IIRNs are sent back to the ALCs for further processing and validation of user
    decisions to delete NSNs.


NSNs Deleted From the Supply System

    DLA-managed NSNs supporting Air Force weapon systems were inappropriately
    deleted from the DLA supply system. We selected a judgmental sample of
    3,102 NSNs associated with 8 Air Force weapon systems for the Air Force to
    review to determine whether NSNs deleted from the DLA supply system were
    still required. Six of the weapon systems were coded in the DLA weapon system
    support program as those that are most critical to the Air Force. The six systems
    included the E-3A Airborne Warning and Control System, the C-141 Starlifter,
    and the F-15 Eagle.

    Because of the amount of time required to research the NSNs, Air Force
    personnel only reviewed 756 of the 3,102 NSNs that were provided to them and
    identified 571 that had been inappropriately deleted from the DLA supply system.
    Air Force personnel explained that reviewing the NSNs was a labor-intensive
    effort because information on the NSNs was no longer in the Air Force supply
    system and had to be manually researched. Information is automatically deleted
    from Air Force systems by electronic transactions from DLA. When DLA deletes
    an NSN from its supply system, DLA also sends a transaction to the Air Force
    that deletes the NSN from the Air Force supply system. The Air Force should
    review those transactions before allowing the NSN to be deleted from the supply
    system.

    Air Force personnel stated they believed that the number of NSNs inappropriately
    deleted from the supply system was significant because of longstanding problems
    with Air Force responses to the DLA DIIP. Air Force personnel stated that since
    1991 the Air Force had transferred management of about 494,000 NSNs to DLA,
    of which approximately 92,000 were subsequently deleted from the DLA supply
    system. Air Force personnel were concerned that the deletion of those NSNs may
    have a serious impact on readiness.




                                        4
       •   In February 2001, an ALC equipment specialist stated that many of the
           items transferred to DLA for management that were unique to Air
           Force weapon systems were being disposed of, which was why the Air
           Force was in so much trouble trying to support its customers. Our
           analysis of DLA disposal records associated with the 571 NSNs that
           Air Force personnel stated had been inappropriately deleted indicated
           that $153,000 of assets were sent to property disposal.

       •   On August 14, 2001, the program manager for the Air Launched and
           Advanced Cruise Missile weapon systems wrote a memorandum to
           DLA concerning the continued decline of DLA support for the
           systems. In the memorandum, he stated that approximately 90 percent
           of the 2,500 NSNs transferred to DLA had already been coded
           terminal in Air Force systems and his office had never received any
           prior notice that the NSNs were coded terminal. He further stated that
           the Air Force was granted disposal exemption for the weapon systems
           several years ago, but he continued to experience NSN terminations
           and asset disappearances. He also told DLA that he could not allow
           system disconnects or inapplicable generic logic to degrade his
           mission any longer.

       •   In October 2001, the program manager for the B-2 Stealth bomber
           stated that hundreds of DLA-managed NSNs supporting the B-2 had
           been terminated over the last several years without the knowledge or
           coordination of affected Air Force organizations. The program
           manager stated that the vast majority of the terminations had most
           likely been a direct result of a breakdown in the DLA DIIP process.

We noted a specific instance where NSN 1560-01-317-0218 (aircraft frame),
supporting the E-3A aircraft, had been inappropriately deleted from the DLA
supply system sometime after March 2000. The NSN was reinstated in the supply
system on July 11, 2001. As of March 2000, DLA supply records showed that the
NSN had no registered users and the NSN was assigned an inactive item review
code of “Y” (item manager review required to retain or delete). Air Force
personnel identified the NSN as a critical asset to the operation of the aircraft and
the DLA weapon system file showed that the “failure of this part will make the
end item inoperable.” As of May 7, 2002, three requisitions from the Air Force
Oklahoma Distribution Depot for a total quantity of six of the NSN were on
backorder. Each requisition was coded with a priority designator 02. Priority
designator 02 is used to identify requirements for immediate installation on, or
repair of, mission-essential materiel and without which the force or organization
is unable to perform its assigned operational mission.




                                      5
Management Controls

    DLA and Air Force management controls to ensure that NSNs were not
    inappropriately deleted from the DLA supply system were ineffective. DLA item
    managers and DLA weapon system support program monitors did not have
    procedures to ensure compliance with applicable guidance to preclude the
    deletion of NSNs supporting Air Force weapon systems from the DLA supply
    system. Additionally, Air Force management controls did not effectively ensure
    that DLA DIIP IIRN transactions were reviewed and promptly returned to DLA.

    Item Managers. DLA item managers did not comply with DLA Manual 4140.2.
    DLA Manual 4140.2 requires that the item manager contact the supply center
    weapon system support program monitor to coordinate the deletion of the code
    that identifies the NSN as a weapon system item. That procedure precludes the
    automatic deletion of assets on hand without proper notification to users, and it
    precludes the erroneous deletion of an NSN from supply files and the subsequent
    need for reactivation. DLA item managers stated that the proper coordination was
    not done, primarily because the coordination was not a required part of the
    automated decision process for deleting an NSN.

    Weapon System Support Program Monitor. DLA weapon system support
    program managers did not comply with DLA Manual 4140.3. DLA
    Manual 4140.3 requires that supply center weapon system program managers
    notify the Military Departments when actions are initiated to delete NSNs in the
    weapon system program. Supply center weapon system program monitors stated
    that they were not aware of the requirement and that DLA did not have detailed
    procedures that described how and when the NSNs should be sent to the Military
    Departments or how the Military Departments should indicate their concurrence
    or nonconcurrence to DLA.

    Air Force Responses to DLA IIRNs. Air Force personnel did not comply with
    Air Force Manual 23-110. Air Force Manual 23-110 requires the cataloging
    office to transmit the IIRNs from DLA to ALCs. The ALCs then send the IIRNs
    to Air Force users for their review. The Air Force stated that it had significant
    problems in complying with Air Force DIIP procedures. Those problems
    included not responding directly to DLA on DIIP IIRNs and not forwarding the
    IIRNs to the appropriate users for their decision on whether to retain or delete the
    NSNs. The problems are longstanding. For example, at one ALC, personnel
    informed us that they had not been involved in the DIIP for the last 8 years.




                                         6
Management Actions

    DLA Management Actions. DLA and the Air Force officials stated that actions
    had been initiated to reinstate approximately 20,000 NSNs with Air Force user
    interest that had been deleted from the supply system during the FY 2000 and
    FY 2001 DLA DIIP processes. According to Air Force personnel, DLA required
    that the Air Force complete a supply support request for each NSN to be
    reinstated in the supply system. A supply support request is used to inform DLA
    of the user’s projected requirements and obtain future logistics support for those
    requirements. Air Force personnel indicated that the process was labor-intensive
    and costly. DLA personnel stated that the Defense Logistics Information Service
    could easily reactivate NSNs because it maintains cataloging records for a period
    of time after NSNs are deleted from supply center files. DLA should consider the
    complete process in determining the most efficient and cost-effective method to
    reinstate catalog and supply files for NSNs that had been inappropriately deleted
    from the supply system.

    On January 29, 2002, DLA requested that its supply centers not send assets to
    disposal for those NSNs for which Air Force user interest had been withdrawn
    through the DIIP. Additionally, DLA is in the process of restoring the Air Force
    as a registered user for 70,000 NSNs that had had Air Force user interest
    withdrawn but which had not been deleted from the supply system. The
    70,000 NSNs would have been deleted from the supply system if the Air Force
    had been the only registered user. The 70,000 NSNs had not been deleted
    because there was other Military Department interest in the NSNs. NSNs that
    will be reinstated or that had Air Force user interest restored will be included in
    future DLA DIIP processes.

    Air Force Management Actions. The Air Force began corrective action during
    the audit by revising its procedures for responding to DLA DIIP transactions. For
    the FY 2002 DIIP, the Air Force instituted actions that included changes to its
    computer system and revisions to the process of sending IIRNs to NSN users for
    review. Because of the changes, IIRNs transmitted by DLA are now received
    automatically by the Air Force Master Item Identification Control System (D043).
    If the D043 system indicates that the Air Force is a registered user of an NSN, the
    system will automatically transmit to DLA an IIRN notifying DLA to retain the
    NSN (a retain notification). If the D043 system does not indicate that the Air
    Force is a registered user, the system will transmit the IIRN to the Stock Number
    Users Directory System (D071).

    The D071 determines whether any Air Force bases have an interest in an NSN. If
    there is interest, a retain notification is transmitted to DLA. When there is no Air
    Force base interest, the IIRN is transmitted to the Edit and Routing System
    (D043C). The D043C system then transmits the IIRN to the appropriate ALC


                                         7
    equipment specialist for review. When an equipment specialist cannot be
    identified, the system transmits the IIRN to the ALC DIIP monitor for review. If
    after 145 days there is no response by the equipment specialist or DIIP monitor to
    delete or retain the NSN, the D043C automatically generates a retain notification
    to DLA. The new procedure is an improvement toward preventing NSNs from
    being inappropriately deleted, but does not provide any incentive or assurance that
    personnel will make the required reviews. Additional controls are needed to
    ensure that the required reviews are properly performed within 145 days, before
    an automatic retain notification is sent.

    To assess the revised procedures’ effectiveness, we requested statistics from the
    Air Force on the FY 2002 DIIP. For the FY 2002 DIIP process, the Air Force
    received 158,678 IIRNs from DLA. The Air Force sent 86,340 retain
    notifications to DLA and sent 389 IIRNs notifying DLA to delete NSNs. The
    remaining 71,949 IIRNs were transmitted to the ALCs for further review. The
    statistics indicated that the revised procedures had improved Air Force
    responsiveness to IIRN transactions from DLA. The Air Force should review the
    procedures at the end of the FY 2002 DIIP process to ensure they are effective.


Management Comments on the Finding

    DLA concurred with the finding and stated that it had frozen assets to prevent
    disposal if an item was canceled as a result of the DIIP and if the Air Force was a
    user of the item. DLA further stated that the weakness identified in the audit will
    be reported in the DLA Annual Statement of Assurance.


Recommendations and Management Comments

    1. We recommend that the Director, Defense Logistics Agency establish
    controls to ensure that national stock number items supporting current
    weapon systems are not deleted from the supply system. Those controls
    should include procedures to:

           a. Comply with the Defense Logistics Agency Manual 4140.2
    requirement that Defense Logistics Agency item managers contact the
    supply center monitor for the weapon system support program to coordinate
    the deletion of the code that identifies the national stock number item as a
    weapon system item.

           b. Comply with the Defense Logistics Agency Manual 4140.3
    requirement that the supply center monitor for the weapon system
    support program notify the Military Departments when a national


                                         8
stock number item supporting a weapon system is to be deleted from the
supply system as a result of the Defense Inactive Item Program process.

DLA Comments. DLA concurred, estimating that actions to implement the
recommendations will be completed January 2003.

2. We recommend that the Director, Defense Logistics Agency, in
coordination with the Air Force, determine the most efficient and cost-
effective method to reinstate national stock number items that were
inappropriately deleted from the supply system.

DLA Comments. DLA concurred and stated that the Air Force is reviewing
NSNs deleted through the DIIP to determine those that should be reinstated.
Estimated completion date is January 2003.

3. We recommend that the Commander, Air Force Materiel Command:

        a. Review the revised procedures for processing Defense Inactive
Item Program transactions when the FY 2002 process is complete to ensure
the procedures are working as intended and that inactive item review
notifications are being promptly returned to the Defense Logistics Agency.

Air Force Comments. The Air Force concurred, stating that the current DIIP
cycle will end on September 30, 2002, and it is currently monitoring the system
changes to ensure they are working as programmed.

       b. Establish controls to ensure that inactive item review notifications
are reviewed by the user and are returned to the Defense Logistics Agency
before an automatic retain notification is provided to the Defense Logistics
Agency.

Air Force Comments. The Air Force concurred, stating that it is currently
tracking the progress of the DIIP review process and the ultimate goal is to have
all IIRNs reviewed in a timely manner by the appropriate Air Force personnel.

       c. Establish controls to review Defense Logistics Agency transactions
deleting national stock numbers from Air Force systems so that the
inappropriate deletion of required data from the Air Force supply system is
prevented.

Air Force Comments. The Air Force concurred in principle, stating that DLA is
looking into implementing additional measures to notify the Air Force that
deactivation is being considered for NSNs with an Air Force weapon system
code. When DLA establishes procedures, the Air Force will establish a system to
review the NSNs before any NSNs are deleted from the supply system.


                                     9
Appendix A. Scope and Methodology
   Work Performed. We selected a judgmental sample of 3,102 NSNs associated
   with eight Air Force weapon systems. We provided the sample to Air Force
   personnel for review to determine whether the NSNs had been inappropriately
   deleted from the DLA supply system. The NSNs were identified from DLA
   supply records available as of March 2000 and May 2001. We discussed the
   DLA DIIP with DIIP monitors, weapon system support program monitors, item
   managers, equipment specialists, computer programmers, and cataloging
   personnel at the Defense Supply Center Columbus, the Defense Supply Center
   Philadelphia, the Defense Supply Center Columbus, and the Defense Logistics
   Information Service. We discussed the Air Force procedures for responding to
   the DLA DIIP with Air Force equipment specialists, DIIP monitors, weapon
   system program personnel, and other cataloging, logistics, and programming
   personnel located at the Air Force Materiel Command, the Air Force Cataloging
   Office, the Oklahoma City ALC, and the Warner Robins ALC. The documents
   we reviewed included DoD, DLA, and Air Force policies and procedures related
   to the DIIP, catalog files, supply records, disposal files, and procurement records.
   The documents were dated from August 1988 through May 2002.

   High-Risk Area. The General Accounting Office has identified several high-risk
   areas in DoD. This report provides coverage of the Defense Inventory
   Management high-risk area.

   Use of Computer-Processed Data. To identify NSNs that were deleted from the
   DLA supply system, we relied on computer-processed data from SAMMS that
   was provided by DLA. We did not perform a formal reliability assessment of the
   computer-processed data. However, to the extent that we reviewed the data, we
   did not find any errors that would preclude use of the data to meet the audit
   objectives or that that would change the conclusions in this report.

   Universe and Sample. For two prior audits of the DLA DIIP, DLA provided us
   with databases of terminal NSNs (excluding those in the clothing and textile,
   medical, and subsistence commodities) for which the “date of last demand” field
   in SAMMS either indicated no demand for more than 5 years or was blank. One
   database was provided from March 2000 supply files and one from May 2001
   supply files of NSNs. To determine the NSNs deleted from the DLA supply
   system, we compared the databases; there were 198,130 items that had been in the
   March 2000 database but were not the May 2001 database. Of the 198,130 items,
   41,478 items had no registered users and 156,652 had at least one registered user.
   There were two possible reasons for an NSN to have been in the March 2000
   database but not the May 2001 database: either the NSN had been deleted from
   the supply system or there had been a demand for the NSN. We focused on the


                                        10
    41,478 NSNs with no registered users for further analysis. If an NSN had
    registered users, its absence from the May 2001 database was probably because a
    demand had been made for it. If an NSN had no registered users, it was more
    likely that the NSN was not in the May 2001 database because it had been deleted
    from the supply system.

    We requested data from DLA to determine whether the 41,478 NSNs with no
    registered users were assigned weapon system designator codes. A weapon
    system designator code identifies NSNs that are in the DLA weapon system
    support program. Based on weapon system codes provided by DLA, we
    determined that 30,516 of the 41,478 NSNs were assigned weapon system
    designator codes. Further analysis of the 30,516 NSNs indicated that
    27,140 supported Air Force weapon systems. Of the 27,140 NSNs, 15,295 were
    considered critical to the operation of Air Force weapon systems.

    We judgmentally selected eight Air Force weapon systems for review. Those
    systems were the B-1B Lancer, B-2 Stealth, E-3 Airborne Warning and Control
    System, cruise missile, C-130 Hercules, C-141 Starlifter, C-5 Galaxy, and
    F-15 Eagle. Of the 15,295 critical NSNs, 6,464 were associated with the
    8 systems. We judgmentally selected 3,102 of the 6,464 NSNs to provide to the
    Air Force for review and determination of whether the NSNs were required to
    support active weapon systems.

    Audit Dates and Standards. This audit was performed from August 2001
    through June 2002 in accordance with generally accepted government auditing
    standards.


Management Control Program Review

    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DLA and Air Force management controls for processing DIIP IIRNs.
    We reviewed DLA and Air Force self-evaluations applicable to those controls.

    Adequacy of Management Controls. As defined by DoD Instruction 5010.40,
    we identified material management control weaknesses at DLA and the Air Force.
    DLA did not have controls to ensure that items that supported active Air Force
    weapon systems were not deleted from the supply system. The Air Force did not


                                       11
have controls to ensure that DLA DIIP IIRNs were reviewed and promptly
returned to DLA and to ensure that supply information in the Air Force supply
system was not inappropriately deleted. Recommendations 1., 3.b., and 3.c. in
this report, if implemented, will correct the material weaknesses identified by the
audit. A copy of the report will be provided to the senior official responsible for
management controls in DLA and the Air Force.

Adequacy of Management’s Self-Evaluation. DLA did not identify
coordinating the deletion of NSNs used on Air Force weapon systems with the
Air Force as an assessable unit and, therefore, did not identify or report the
material management control weaknesses identified by the audit.

The Air Force did not identify reviewing and processing DLA IIRNs as an
assessable unit and, therefore, did not identify or report the material management
control weaknesses identified by the audit.




                                     12
Appendix B. Prior Coverage
    During the past 5 years, the Inspector General of the Department of Defense
    (IG DoD) and the Air Force Inspection Agency have issued several reports
    discussing obsolete NSNs. Unrestricted IG DoD reports can be accessed over the
    Internet at http://www.dodig.osd.mil/audit/reports.


IG DoD

    IG DoD Report No. D-2002-131, “Terminal Items Managed by the Defense
    Logistics Agency for the Navy,” July 22, 2002

    IG DoD Report No. D-2002-060, “Management of Terminal Items at the Defense
    Logistics Agency,” March 13, 2002

    IG DoD Report No. D-2001-187, “Defense Logistics Agency Items Supporting
    Obsolete Army Weapon Systems,” September 27, 2001

    IG DoD Report No. D-2001-131, “Items Excluded From the Defense Logistics
    Agency Defense Inactive Item Program,” May 31, 2001

    IG DoD Report No. D-2001-035, “Management of Potentially Inactive Items at
    the Defense Logistics Agency,” January 24, 2001

    IG DoD Report No. D-2000-185, “Allegations to the Defense Hotline Concerning
    Management of Obsolete Reparable Items,” September 7, 2000


Air Force

    Air Force Inspection Agency Report No. PN 00-502, “Purging Aircraft Major-
    End Items,” September 19, 2000




                                      13
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Commander, Air Force Materiel Command
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency
   Commander, Defense Supply Center Columbus
   Commander, Defense Supply Center Philadelphia
   Commander, Defense Supply Center Richmond

Non-Defense Federal Organization
Office of Management and Budget




                                          14
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
Government Reform




                                          15
Department of the Air Force Comments




                     17
18
Defense Logistics Agency Comments




                     19
20
21
Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Kimberley A. Caprio
Tilghman A. Schraden
Terrance P. Wing
Paul A. Hollister
James J. McDermott
Herman Tolbert
Elizabeth L.N. Shifflett
